HHS/OIG, Audit -"Results of Our Self-Initiated Audits of Medicaid Drug Rebate Programs Operated by the State Agencies of Arkansas, Louisiana, New Mexico, and Oklahoma, As Well as the Texas State Auditor's Report on the Texas Medicaid Drug Rebate Program,"(A-06-03-00043)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Results of Our Self-Initiated Audits of Medicaid Drug Rebate Programs Operated by the State Agencies of Arkansas,
Louisiana, New Mexico, and Oklahoma, As Well as the Texas State Auditor's Report on the Texas Medicaid Drug Rebate Program," (A-06-03-00043)
January 30, 2004
Complete
Text of Report is available in PDF format (256 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to determine whether the five State agencies in Region VI (Arkansas, Louisiana, New Mexico, Oklahoma,
and Texas) had established adequate accountability and controls over their respective Medicaid drug rebate program.  Individual
reports were issued to each State agency, and this report summarizes the issues identified in the five reports.  We
found that three of the five State agencies had not established adequate accountability and controls over their Medicaid
drug rebate programs.  Additionally, weaknesses were identified in all State agencies.  As a result, there was
no assurance that all drug rebates due the State agencies were collected.  We recommended that CMS follow up on each
of the recommendations and ensure that corrective action is implemented by each State agency.